Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    HOSPITAL CLOSURE: 1993
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                            OFFICE OF AUDIT SERVICES
The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                            OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

ATLANTA OFFICE                                                        HEADQUARTERS
Ron Kalil, Project Leader                                             Winnie Walker

Paula Bowker                                                          Linda Moscoe

Peggy Daniel

Betty Apt

Jackie Andrews

Joe Townsel


For additional copies of this report, please call the Atlanta Regional Office at (404) -331-410S.

Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    HOSPITAL CLOSURE: 1993





                @ SERVIC~$ “(i
            #
                             %

        $                        JUNE   GIBBS BROWN
        ;                        Inspector   General
        s
        %
          %
          ++
                 $
                                        JANUARY 1995
           %d?a
            >                           OEI-04-94-00120
                 EXECUTIVE                         SUMMARY


PURPOSE

To describe the extent, characteristics, reasons for, and impact of hospital closure in
1993.

BACKGROUND

The closure of hospitals in recent years has generated public and congressional concern.
According to a number of studies, more hospitals are expected to close in coming years.
Questions have been raised about the phenomenon of hospital closure, as well as the
implications for public policy.

We released a report in May 1989 describing the nationwide phenomenon of hospital
closure in 1987. We continued analysis of hospital closure to determine trends and
effects of the phenomenon. We issued subsequent reports on hospital closure in 1988,
1989, 1990, 1991 and 1992.

The findings from the previous OIG annual studies were similar. The hospitals that
closed were small and had low occupancy rates. When the hospitals closed, few patients
were affected. Most could get medical care nearby.

FINDINGS

Our inspection of hospital closure in 1993 produced findings similar to those previously
reported for 1987-1992.

�	    Forty-two general, acute care hospitals closed, continuing a downward trend in the
      annual number of closures. They were located in 26 States. Eight new general,
      acute care hospitals opened in 1993, and five hospitals that closed prior to 1993
      reopened in 1993.

�     Twenty-two of the closed hospitals were rural and 20 were urban.

F	    Closed hospitals in both rural and urban areas were much smaller than the
      national averages.

             Rural hospitals that closed had an average size of 31 beds compared to an
             average of 78 beds for all rural hospitals nationally.

             Urban hospitals that closed had an average size of 75 beds compared to an
             average of 261 beds for all urban hospitals nationally.




                                               i
�	   Occupancy rates for closed rural and urban hospitals were lower than the national
     averages.

            Rural hospitals that closed had an average occupancy rateof 18 percent
            compared toan average of35 percent for all rural hospitals nationally.

            Urban hospitals that closed had an average occupancy rateof 29 percent
            comparedto an average of54 percent for all urban hospitals nationally.

�	   For rural hospitals that closed, the average daily census in the year priorto
     closure was six patients. The urban hospitals that closed had an average daily
     census of22 patients.

�	   Medicare utilization among rural and urban hospitals that closed was slightly
     higher than national averages.

            In rural areas, the average Medicare utilization among hospitals that closed
            was 60.4 percent compared to an average of 54.8 percent for all rural
            hospitals nationally.

            In urban areas, the average Medicare utilization among hospitals that
            closed was 51.4 percent compared to an average of 47.1 percent for all
            urban hospitals nationally.

E    Medicaid utilization among rural and urban hospitals that closed also differed
     from national averages.

            In rural areas, the average Medicaid utilization among hospitals that closed
            was lower than the rural national average (7.5 percent vs. 12.7 percent).

            In urban areas, the average Medicaid utilization among hospitals that
            closed was slightly higher than the urban national average (14.8 percent vs.
            13.6 percent).

�	   Although residents in a few communities had to travel greater distances for
     hospital care, all but eight had emergency and inpatient medical care available
     within 20 miles of a closed hospital.

�	   At the time of our inspection, 29 of the 42 closed hospital facilities (69 percent)
     were being used for health-related services. Also, plans were being made for
     using 6 of the remaining 14 vacant hospitals for health-related services.




                                             ii
                        TABLE                    OF CONTENTS

EXECUTIVE      SUMMARY              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..o.i	

INTRODUCTION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1	

FINDINGS

     Extent and Characteristics of Closed Hospitals                         . . . . . . . . . . . . . . . . . . . . . . . . 3


              How Many Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


              Where Were They . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


              What Were They Like . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


     Reasons for Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


     Impact ofHospital          Closure       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


              How Many Patients Were Affected                       . . . . . . . . . . . . . . . . . . . . . . . . . . ..8


              Are Inpatient Care and Emergency

               Services Available . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9


              What Is the Building Used For Now                       . . . . . . . . . . . . . . . . . . . . . . . . . .11


ENDNOTES       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13


APPENDIXES

     Methodology          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

     Number of Hospital Closuresby                  State     . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1


     Hospital Closures byHospital               Name and Location               . . . . . . . . . . . . . . . . . . . . C-1

                                   INTRODUCTION

PURPOSE


To describe the extent, characteristics, reasons for, and impact of hospital closure in

1993.


BACKGROUND


In the past several years, the closure of general, acute care hospitals has generated public

and congressional concern. According to a number of studies, more hospitals are

expected to close in coming years. Questions have been raised about the phenomenon of

hospital closure in the United States, as well as implications for public policy.


We released a report in May 1989 describing the extent, characteristics and impact of

hospital closure in the United States in 1987. That inspection showed that 69 hospitals

closed in 1987. Following that inspection, many health policy officials in both the

executive and legislative branches of the Federal government encouraged us to continue

analysis of the phenomenon. They expressed interest in detecting differences in the

(1) rate of hospital closure, (2) characteristics of hospitals that close, and (3) impact of

their closing.


Similar inspections of the phenomenon of hospital closure in 1988 through 1992 showed

a downward trend in the number of closures.



                                        HOSPITAL              CLOSURE

                        #   of    CIosure9
                 1oo-
                                             88



                  80-                                76

                                 69



                                                                   66     67

                                                                                  60




                            1Q87         19aa     1989          1990    1991   1992

                                                         YEAR



                                                         1

The findings from the 1987 through 1992 inspections were similar. The hospitals that
closed were small and had low occupancy rates. When the hospitals closed, few patients
were affected. Most could get medical care nearby.

SCOPE

We examined hospitals that closed in calendar year 1993.

For purposes of this study, the following definitions were used.

Hospital: A facility that provides general, short-term, acute medical and surgical
inpatient semices.

Closed Hospital: One that stopped providing general, short-term, acute inpatient
semices in 1993. If a hospital merged with or was sold to another hospital and the
physical plant closed for inpatient acute care, it was considered a closure. If a hospital
both closed and reopened in 1993, it was not considered a closure.

METHODOLOGY

To determine the extent, reasons for, and impact of hospital closure, we obtained
information from State licensing and certification agencies, State health planning
agencies, State hospital associations, HCFA data bases, officials associated with closed
and nearby hospitals, and local public officials.

We obtained information on the characteristics of all hospitals and those that closed in
1993 from the Hospital Cost Report Information System (HCRIS) maintained by HCFA.

Appendix A describes our methodology in further detail.

We conducted our review in accordance with the Quali~ Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                              2

                                   FINDINGS


The Inspector General’s study ofhospitals   closedin   1993 showed that:

��     Forty-two general, acute care hospitals closedin   1993, continuing a downward
       trend in the annual number of closures.

�      Most hospitals that closed were small and had low occupancy rates.

F      When a hospital closed, few patients were affected.

��     Although residents of a few communities had to travel greater distances for
       hospital care, all but eight had emergency and inpatient medical care available
       within 20 miles of a closed hospital.

While 42hospitals closedin 1993,8new general, acute care hospitals opened, adding 579
beds to the national supply of beds. In addition to the new openings during 1993, 5
hospitals that closed prior to 1993 reopened in 1993, adding another 150 beds.


EXTENT AND CHARAC1’ERISTICS              OF CLOSED HOSPITALS

How Many Closed

In 1993, there were 4,927 general, short-term, acute care hospitals inthe United States
entered on HCFA’S data base as participating in the Medicare program. Forty-two
hospitals closedin 1993 -- 0.85 percent ofall hospitals nationally. Eight fewer hospitals
closed in 1993 than in the previous year.




When they closed, the general, acute care inpatient bed supply was reduced by 2,192
beds, or 0.3 percent.




                                             3
Where Were They

The closed hospitals were located in 26 States. Texas had the greatest number of
closures (6), followed by Minnesota (3) and Oklahoma (3). Seven States had 2 closures
each and the remaining 16 States had 1 closure each. Appendix B lists the number of
hospital closures by State. Appendix C lists the closures by hospital name and location.

About the same percentage of rural hospitals (0.9 percent) and urban hospitals
(0.8 percent) closed in 1993.




What Wwe the Chsed Hospitak Like

~:    Hospitals that closed in 1993 were small. More than half the hospitals that closed
(52 percent) had fewer than 50 beds.




                           I           Number of Closed Hospitals        I
      Number of Beds            Rural              Urban   I    Total    I   Percent
        O-29                      13
       30-49                       5
       50-99                      4
       100-199                    0                  6              6            14
      200-299                     0                  0              0            0
      300>                        0                  0              0            0

          TOTALS                  22                20              42        100




                                              4

Both the rural and urban hospitals that closed in 1993 were considerably smaller than the
average size of rural and urban general, acute care hospitals nationally.


                                                 HOSPITALS                   THAT   CLOSED
                                                         WERE                 SMALL

                                #           of    Beds
                 Soo        –



                 260        –



                 200        –



                 160–



                 loo–



                  60        –



                       o–
                                        RURAL            HOSPITALS              URBAN          HOSPITALS


                                        _         National     Avg       -      Cioseci        Hospital         A.g




&CUDaIl  cw  Occupancy rates for closed rural and urban hospitals were considerably
lower than the national averages.1

                            OCCUPANCY                                RATES              WERE              LOW

                60%     –
                                                                                       54.2%


                60%     –



                40%     –                        3s.4%



                so%     –



                20%     –



                lo%–



                 0%     –
                                    RURAL.            HOSPiTALS              URBAN        HOSPITALS


                                    _            Nationai    Avg     -       Ciosecl      Hospitai        Avg




                                                                     5
Medicare Utilization: In both mraland urban areas, theaverage Medicare utilization
among hospitals that closed was slightly higher than the national averages.2

                                  MEDICARE                         UTILIZATION
                 70%     –

                                                   60.4%

                 60%     –



                 60%     –


                 40%     –



                 30%     –



                 20%     –



                 10%     –



                  o%     –
                                 RURAL       HOSPITALS               URBAN     HOSPITALS


                             _       National      Avg         =     Closed   HosDital     Avg




Medicaid Utilization: In rural areas, the average Medicaid utilization among hospitals
that closed was lower than the rural national average (7.5 percent vs. 12.7 percent). In
urban areas, the average Medicaid utilization among hospitals that closed was slightly
higher than the urban national average (14.8 percent vs. 13.6 percent)$

                                  MEDICAID                         UTILIZATION
                 20%

                 1 e%

                 1 6%

                  1 4%                   12.7%

                 1 2%

                 1 o%

                   e%

                   6%

                   4%

                   2%

                   o%
                             RURAL          HOSPITALS                URBAN    HOSPITALS


                             _       National      Avg         =     Closed   Hospital     Avg




                                                           6
REASONS FOR CLOSURE

As in our previous hospital closure studies, the many health care professionals
interviewed reported no single reason for hospital closure. Hospitals closed because of
the interrelated factors of declining occupancy, lagging revenues, and rising costs.
Hospital viability was said to depend on the stability of all three factors. The weakening
of one may begin a chain reaction eventually leading to hospital closure.




                               r
                                                 Declining
                                                 Occupancy
                  Rising
                  costs
                                                              *

                            L	              Declining
                                            Revenues


Although the sequence and combination of these factors were not always the same,
generally the scenario was as follows:

The hospital’s occupancy begins to slide because a doctor leaves town or retires, or
begins to admit patients to a more modern hospital not far away. Lengths of stay are
down because of prospective payment pressures and more effective treatment methods.
A new ambulatory surgical center has opened and is also drawing patients away.

While occupancy is declining, the hospital’s costs continue to rise. Competition with
other hospitals means that new, high technology equipment is needed. Nurses and
technicians are demanding higher salaries - and they are getting them from other
hospitals nearby. The building may be deteriorating but the hospital hasn’t been able to
fully fund its capital reserves for several years.

On the other hand, patient care revenue is down because of lower occupancy and more
uninsured or inadequately insured patients. For those who do have coverage, either


                                             7
public or private, insurers are holding down their costs and further eroding the hospital’s
dwindling resources.

Soon the hospital administrator is unable to manage the situation, and the Board
examines its options: continue to go deeper into debt; sell the hospital; merge with
another; or close.

The smaller the hospital, the less able it is to resist this downward spiral. As noted
earlier, the average size of the 42 hospitals that closed in 1993 was only 31 beds for rural
hospitals and 75 beds for urban hospitals. They are considerably smaller than the
national averages.


IMPACT OF HOSPITAL CLOSURE


In communities where hospitals closed in 1993, we assessed the


F      number of patients affected by closure of hospitals,


E      availability of inpatient care and emergency medical services, and


�      current use of a closed hospital facility.


How Many Patienfi Were Affected

For rural hospitals that closed in 1993, the average daily census in the year prior to
closure was about six patients. The urban hospitals that closed had an average daily
census of 22 patients.




                                                     Rural Hospitals    Urban Hospitals
    Average Number of Beds                                  31.0                  75.5
    Average Occupancy Rate                              X   18.0%             X   29.2$Z0
    Average Number of Patients                               5.6                  22.0


We analyzed Medicare utilization data to determine the number of elderly patients
affected by hospital closure in 1993. In rural hospitals that closed, about three Medicare
patients were in the hospital on an average day in the year prior to closure. In the urban
hospitals that closed, there were about 11 Medicare patients on an average day.



                                               8
                                                  Rural Hospitals            Urban Hospitals
   Average Patient Census                                   5.6                     22.0
   Average Medicare Utilization Rate                   X   60.4%                  x 51.470
   Average Number Medicare Patients                        3.4                      11.3


Are Inpatient Care and Emqency      Sew-cm Available

We assessed availability of inpatient and emergency medical care in miles from the
closed hospitals to the nearest inpatient and emergency facilities.

Irmatient Care:   In most communities where a hospital closed in 1993, inpatient hospital




                                                              NUMBER OF CLOSED
                                                                  HOSPITALS
      DISTANCE
                                                    Rural         Urban
      Within 3 Miles
                                              o (o%)      13 (65%)
      4-10 Miles
                                                  1 (5%)       6 (30%)
       11-20 Miles
                                               13 (59%)       1 (5%)
      21-30 Miles
                                                6 (27%)        o (o%)
      More than 30 Miles
                                         2 (9%)         o (o%)
                           Totals                             22 (loo%)        20 (loo%)

Rural Areas: Residents in 14 of the 22 rural communities (64 percent) where a hospital
closed could get inpatient hospital care within 20 miles of the closed hospital.

Residents of 2 rural communities had to travel more than 30 miles for inpatient hospital
care:
             Rogers City, Michigan       35 miles
             Mohall, North Dakota        35 miles




                                             9

Urban Areas: In all but 1 of the 20 urban communities where a hospital closed in 1993,
residents could get inpatient hospital care within 10 miles of the closed hospital.
Residents of Durdap, Tennesse must travel 18 miles to Whitwell for inpatient care.
Fourteen of the 20 urban communities (70 percent) where a hospital closed could get
inpatient care in the same town.

Emer~encv Services: When a hospital closed, the community lost not only inpatient beds,
but also 24-hour emergency services.

Rural Areas: For residents in 15 of 22 rural communities (68 percent) where hospitals
closed in 1993, emergency care facilities were available within 20 miles of the closed
hospitals. Residents of 1 community must travel more than 30 miles for 24-hour
emergency care. In Rogers City, Michigan the nearest emergency care is located 35
miles away in Alpena. Rogers City does have physicians located there, however.

Urban Areas: In 19 of 20 urban communities       (95 percent) where a hospital closed in
1993, emergency care facilities were available   within 10 miles of the closed hospital. The
remaining community, Dunlap, Tennessee, is       within 18 miles of an emergency care
facility. Dunlap has physicians located in the   community.




                                                        I    NUMBER OF CLOSED
                                                                 HOSPITALS
      DISTANCE
                                         I    Rural       I   Urban
      Within 3 Miles
                                   I    3 (14%)     I   13 (65%)
      4-10 Miles
                                       I	   1 (4.5%)    I   6 (30%)
       11-20 Miles
                                          11 (50%)        1 (5%)
       21-30 Miles
                                     I	   6 (27%)     I   o (o%)
      More than 30 Miles
                                    1 (4.5%)        o (o%)
                           Totals                            22 (loo%)       20 (loo%)




                                             10

What b the Buiiiiing Used For Now

At the time of our review, 29 of the 42 closed hospital buildings (69 percent) were being
used for health-related services. For example:

��     Choctaw Hospital in Butler, Alabama and Eveleth Hospital in Eveleth, Minnesota
       became nursing homes.

��     Indian Health Medical Center in Frederic, Wisconsin is now a drug rehabilitation
       and counseling clinic.

F	     Clintonville Community Hospital in Clintonville, Wisconsin became a Rural Health
       Clinic.

��     Union City Memorial Hospital in Union City, Indiana and Oswego City Hospital
       in Oswego, Kansas were converted to outpatient clinics.

one notable initiative of community involvement when a hospital closes took place when
the Central Medical Center Hospital in St. Louis, Missouri became the Penrose Family
Support Center. This is a community-based family resource center that provides
integrated services to families in one convenient location. The Hospital Association of
Metropolitan St. Louis purchased the closed hospital facility and donated the building to
the Missouri Department of Social Services.

At the time of our review the Penrose Center had 19 service agencies housed in the
closed hospital facility. Some of the services provided are primary health care,
drug/alcohol rehabilitation, outpatient day treatment, crisis overnight care, nutritional
programs for mothers with children under school age, training and employment for
AFDC clients and other area residents, in-home semices to assist elderly residents,
coordination of a variety of city youth programs, family treatment services for abused and
neglected children, and a mentoring program including those in foster care.

Some of the future Penrose occupants include agencies that will provide dialysis
treatment, breast and cervical cancer screening survey, respite care for parents of
children, child support enforcement services, housing referrals, legal assistance for
community residents, case management services to families with mental health problems,
on-site child care center, and a congregate activity center for the elderly.




                                            11

The following chart illustrates the use of all 42 hospital facilities after closure in 1993.




              USE OF BUILDING                   I        Rural          I        Urban
    Specialty Treatment Facility
    (e.g. chemical dependency)                              3                      3
    Reopened Hospital                           I           o            I          1
    Long Term Care Facility                                 4                       1
    Outpatient   Services/Clinic                I          13           I          6
    Offices                                     I           5           13
    Vacant                                      I           4           19

  *Duplicate count:    In 9 of the 42 former hospitals more than 1 service is now offered.


At the time of our review, plans were being made to use 6 of the remaining 14 vacant
hospitals for health-related services. For example, Sequatchie General Hospital in
Dunlap, Tennessee and Dickey County Memorial Hospital in Ellendale, North Dakota
will be converted to an assisted elderly living facility. Also, plans were being made for
three of the closed facilities to reopen as acute care hospitals.




                                               12

                                      ENDNOTES


1.	   Hospital occupancy rate is defined as the actual number of patient days divided by
      the total bed days available. National occupancy rate is defined as the sum of all
      hospitals’ occupancy rates, divided by the number of hospitals.

2.	   Average Medicare utilization of closed rural and urban hospitals is defined as the
      percent of Medicare patient days compared to the total patient days for each
      hospital, summed anddivided bythenumber        of hospitals. National average
      Medicare utilization is the percent of Medicare utilization of each hospital,
      summed and divided by the total number of hospitals.

3.    Medicaid utilization is calculated in the same way as Medicare utilization.




                                            13

                               APPENDIX                  A


                                     METHODOIXIGY

Extent of Hospital Closure

Todetermine howmany hospitals closedin 1993, resurveyed State licensing and
certification agencies, State hospital associations and State health planning agencies. We
also compiled Health Care Financing Administration (HCFA) data on terminated
providers in 1993, When a closed hospital met the study’s definition or when there were
questions, we contacted officials associated with the closed hospitals, officials associated
with hospitals nearest to the closed hospital, and local public officials.

To determine the number of hospitals in the United States, we used the Hospital Cost
Report Information System (HCRIS) maintained by HCFA. We included only general,
short-term, acute care hospitals under Medicare’s Prospective Payment System (PPS) in
the universe. There were 4,927 hospitals listed on HCRIS as short-term, acute care,
general hospitals for the ninth year of PPS (PPS 9).

Character&tics of Hospital Closure

To analyze characteristics of closed hospitals, we used HCRIS data. Cost reports were
not available for 1 of the 42 closed hospitals. For the remaining 41 hospitals, we used
the latest pre-closure cost reports. For example, if a hospital closed in May 1992 and its
accounting year was on a January-December cycle, we used the provider’s January 1,
1992 to December 31, 1992 report.

Reasons for Hospital Closure

We contacted officials of the following organizations to determine the reasons for 1993
hospital closure:

F      State hospital associations

E      State health planning agencies

�      State certification and licensing agencies

F      Closed hospitals

E      Nearby hospitals to closed hospitals

F      Local ambulance companies




                                              A -1

Impct   of Hospital Closure

We limited our “impact” analysis to the distance from a closed hospital to the nearest
still-operating hospitals and to emergency services. We obtained data for our analysis
from interviews with the following sources.

*       Former hospital administrators, board members, and/or staff of closed hospitals


�       Hospital administrators   and/or staff at the nearest hospitals


k       Local police and health officials


b       Local government officials


�       State health planning agencies


>       State certification and licensing agencies


F       State hospital associations





                                              A -2

                      APPENDIX                 B





                      II                   1              I

      Oklahoma                  3                  2              1
      Alabama                   2                  2              0
      California                2                  1              1
      Michigan                  2                  1              1
      Missouri                  2                  0              2
      Mississippi               2                  2              0
      North Dakota              2                  2              0
      Wisconsin                 2                  2              0
      Colorado                  1                  1              0
      Connecticut               1                  0              1
      Florida                   1                 0               1
      Illinois                  1                  1              0
      Indiana                   1                  1              0
                      II                   }              1

II	   Kansas                    1                  1              0
      Louisiana                 1                  1              0
      Massachusetts             1                 0               1
      Maryland                  1                 0               1
      New Mexico                1                 0               1
      Pennsylvania              1                 0               1
      Rhode Island              1                 0               1
      Tennessee                 1                 0               1
      Washington                1                 0               1
      West Virginia             1                 0               1
      Wyoming                   1                  1             0
      26 States            42 Closures         22 Rural       20 Urban




                                    B-1

                                   APPENDIX              C


                    1993 HOSPITAL CLOSURES BY NAME AND LOCATION
                                                                      Rural/
 Hospital Name                                 City
          State   Urban
Choctaw Hospital Shoals Community Hospital   Butler
          AL       rural
D.E. Jackson Memorial Hospital               Lester
          AL       rural
Beverly Hills Medical Center                 Los Angeles
     CA       urban
West Side Community Hospital District        Newman
          CA       rural
St. Joseph Hospital                          Del Norte        co       rural
Park City Hospital                           Bridgeport       CT       urban
Doctors Hospital of Tampa                    Tampa            FL       urban
Savanna City Hospital                        Savanna          IL       rural
Union City Memorial Hospital                 Union City       IN       rural
Oswego City Hospital                         Oswego           Ks       rural
Bienville General Hospital                   Arcadia          LA       rural
Amesbury Hospital                            Amesbury                  urban
Leland Memorial Hospital                     Riverdale        MD       urban
Huron Shores Health Center                   Rogers City      MI       rural
North Detroit General Hospital               Detroit          MI       urban
Pelican Valley Hospital                      Pelican Rapids           rural
Eveleth Hospital                             Eveleth          MN      urban
Comfrey Hospital                             Comfrey          MN      rural
Deaconess Hospital-North                     Normandy         MO      urban
Central Medical Center Hospital              St. Louis        MO      urban
Rush Hospital-Newton                         Newton           MS      rural
Fulton Hospital                              Fulton           MS      rural
Renville-Bottineau Hospital                  Mohall           ND      rural
Dickey County Memorial Hospital              Ellendale        ND      rural
Presbyterian Northside Hospital              Albuquerque      NM      urban
Okarche Memorial Hospital                    Okarche          OK      rural
Alfalfa County Hospital                      Cherokee         OK      rural
Southwwst Medical Center                     Moore            OK      urban
Cooper Hospital                              Philadelphia     PA      urban
Cranston General Hospital                    Cranston         RI      urban
Sequatchie General Hospital                  Dunlap           TN      urban
Lockhart Hospital                            Lockhart         TX      rural
Valley Community Hospital                    El Paso          TX      urban
Lee Memorial Hospital                        Giddings         TX      rural




                                             c-1


—..—.    _
                1993HOSPITAL      CLOSURES BY NAME AND LOCATION   (continued)
                                                                                Rural/
Hospital Name                                  City               State         Urban
Dallas Memorial Hospital                      Dallas              Tx            urban
Tri-City Regional Hospital                    Pasadena            TX            urban
Southeastern Methodist Hospital               Dallas              TX            urban
St. Lukes Memorial Hospital                   Spokane             WA            urban
Clintonville Community Hospital               Clintonville        WI            rural
Indian Health Medical Center                  Frederic            WI            rural
Weirton Osteopathic Hospital                  Weirton                           urban
South Big Horn County Hospital                Greybull                          rural




                                             c-2



—
